PROOF OF SERVICE
, do swear or declare that on this date,
Oi(fK . 20 1 ( as required by
Supreme Court Rule 29 I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
James A Campbell Counsel for State Defendants Office Of The Nebraska
Attorney General 2115 State Capitol Lincoln N.E. 68509 402-471-2682
Jim.campbell@nebraska.gov
i

Jacqueline M. Deluca Counsel for Gonzales Fraser Stryker PC LLO 500 Energy
Plaza 409 South 17 th st. Omaha, N.E. 68102 420-341-6000
j deluca@fraserstryker. com
Dan H. Ketcham Counsel for John Herdman Engles, Ketcham, Olson & Keith
P.C. 1350 Woodman Tower Omaha, N.E. 68102 402-348-0900 #1893

23

